No.

IN THE
SUPREME COURT OF THE UNITED STATES

STEVEN IVEY - PETIONER
VS.
RICHARD CORCORAN,
FLORIDA DEPARTMENT OF EDUCATION, et.al.

- RESPONDENTS

ON PETITION FOR A WRIT OF CERTIORARI TO
FLORIDA SUPREME COURT
PETIONER APPENDIX
STEVEN IVEY
PO BOX 238353
COCOA, FL, 32923
407 - 457- 2928

1

NMgr
1W°"
r

First District Court of Appeal
State of Florida
No. 1D18-941
Steven Ivey,
Appellant,
v.
Richard Corcoran,
Appellee.

On appeal from the Circuit Court for Leon County.
Charles W. Dodson, Judge.
August 30, 2019
Per Curiam.
Affirmed.
Ray, C.J., Bilbrey, J., and Sharrit, Michael S., Associate
Judge, concur.
e**

Not final until disposition of any timely and
authorized motion under Fla. R. App. P. 9.330 or
9.331.

Af?-A
6)

Steven Ivey, pro se, Appellant.
Jason D. Bomtreger, Office of the General Counsel, Florida
Department of Education, Tallahassee, for Appellee.

ft

2

&

IN THE CIRCUIT COURT OF THE
SECOND JUDICIAL CIRCUIT, IN AND
FOR LEON COUNTY, FLORIDA
STEVEN IVEY,
Plaintiff,
v.

Case No. 2014 CA 2493

PAM STEWART, Commissioner of Education,
and the DEPARTMENT OF EDUCATION,
Defendants.
/

ORDER DISMISSING AMENDED COMPLAINT
THIS CAUSE comes before the Court upon Defendants’ Renewed Motion to Dismiss.
Despite having scheduled a hearing for 10:30 a.m. on January 30, 2018, per Defendants’ Notice
of Hearing, and despite issuing an order granting Plaintiffs Motion to Appear Telephonically at
said hearing, Plaintiff made neither personal nor telephonic appearance during the allotted
hearing time. Counsel for Defendants appeared personally, although no oral argument was taken.
Accordingly, having considered written arguments submitted by both Plaintiff and Defendants,
and being otherwise fully advised in the premises, it is hereby.
e

ORDERED AND ADJUDGED that Defendants’ Renewed Motion to Dismiss is
GRANTED, as Plaintiffs Complaint and Amendment to Complaint fail to state a viable cause
of action Accordingly, Plaintiff’s Complaint and Amendment are dismissed with prejudice.
DONE AND ORDERED in Tallhhassee, Florida, this

2018.

b

day of

r
'

i

Char es Dodson
Circu t Judge
1

Alf‘8

Copies furnished to all parties via E-Portal and U.S. Mail:
Steven Ivey
Post Office Box 721665
7611 S, OBT
Orlando, FL 32872
ivevsteven@hotmail.com
iwstv@vahoo.com
Jason D. BomtregerfEsq.
Office of the General Counsel
Florida Department of Education
325 West Gaines Street, Suite 1244
Tallahassee, FL 32399-0400
iason.bomtreger@fldoe.org

A

2

Supreme Court of jflorftju
THURSDAY, OCTOBER 17,2019
CASE NO.: SC19-1782
Lower Tribunal No(s).:
1D18-941; 372014CA002493XXXXXX
STEVEN IVEY

Petitioners)

vs.

RICHARD CORCORAN
Respondents)

This case is hereby dismissed. This Court lacks jurisdiction to review an
unelaborated decision from a district court of appeal that is issued without opinion
or explanation or that merely cites to an authority that is not a case pending review
in, or reversed or quashed by, this Court. See Wells v. State, 132 So. 3d 1110 (Fla.
2014); Jackson v. State, 926 So. 2d 1262 (Fla. 2006); Gandy v. State, 846 So. 2d
114 i (Fla. 2003); Stallworth v. Moore, 827 So. 2d 974 (Fla. 2002); Harrison v
Hyster Co., 515 So. 2d 1279 (Fla. 1987); DodiPubl’g Co. v. Editorial Am. S.A.,
385 So. 2d 1369 (Fla. 1980); Jenkins v. State, 385 So. 2d 1356 (Fla. 1980).
No motion for rehearing or reinstatement will be entertained by the Court.
A True Copy
Test:

Jo£n A. Tomasino
Clerk, Suprehie Court

’<SSS-'

td
Served:
JASON D. BORNTREGER
STEVEN IVEY
HON. CHARLES WILLIAM DODSON, JUDGE
HON, GWEN MARSHALL, CLERK
HON. KRISTINA SAMUELS, CLERK

4ff-c
65

DOE.LetHear.11.30.17
Steven Ivey
PO Box 721665
Orlando* FL, 32872
Dason D. Borntreger
Office of the General Counsel
FL Dept, of Education
325 West Gaines St « * Ste. 1244
Tallahassee* FL* 32399

NOV 11, 2017

Dear 2nd Circuit Court/ 3. Borntreger*
Hie plaintiff is giving notice that the defendants
have not sent to him any ’Motion'* that needs to have a hearing*
,-csr
thus, there is no present need to schedule a hearing.
The plaintiff has made a request for cKocumentation
or records covering the funds received through the federal program
the plaintiff and others participated in through the Agency for
Workforce Innovations* AMI* during 2009 to 2010.
Sincerely*
Steven Ivey
Certificate of Service

i

Office of the Clerk
Second Circuit Court of FL
Leon County Courthouse
Civil Division/Room 365-C
301 S. Monroe St.
Tallahassee, FL* 32301
and,
Uason D. Borntreger
Office of the General Counsel
FL Dept, of Education
325 West Gaines St *3 Ste. 1244
Tallahassee, FL, 32399

Date

Steven Ivey* Plaintiff

Page 1

t>

Filing # 50109014 E-Filed 12/15/2016 02:51:11 PM

JN THE CIRCUIT COURT OF THE SECOND JUDICIAL CIRCUIT
IN AND FOR LEON COUNTY, FLORIDA
STEVEN IVEY,
Plaintiff
v.

Civil Action No, 2014-CA-002493

PAM STEWART, Commissioner of Education,
and the DEPARTMENT OF EDUCATION,
Defendants.
DEFENDANTS’ RENEWED MOTION TO DISMISS. OR. IN THF. AI TFRNATIVE.
MOTION FOR A MORE DEFINITE STATEMENT
Defendants, Pam Stewart, Commissioner of Education, and the Department of Education,
hereby submit this, their renewed motion to dismiss or, in the alternative, motion for a more
definite statement, and in support thereof state as follows:
1.

Plaintiffs initial Complaint alleges that several instructors at Mid Florida Tech, a

school operated by the Orange County Public School District, discriminated against Plaintiff
While not expressly stated, it appears that Plaintiff is alleging a violation of the Florida Civil
Rights Act, Part I of Chapter 760, Florida Statutes (2012).
2.

Paragraph 21 of the Complaint alleges that the Orange County Public School

System is “... under the jurisdiction of the Florida Department of Education...,” and therefore,
the Plaintiff apparently believes, the Defendants have some responsibility for the alleged
discrimination. However, the Commissioner of Education and the Department of Education do
not control the employees of the Orange County Public School District, and have no authority to
oversee the District’s supervision of District employees.

1

g7

The Orange County Public School District controls the public schools located

3.

within the district. The District is created by the Florida Constitution, Art. IX, §4(a), Fla. Const.,
which provides that the school board “... shall operate, control and supervise all free public
schools within the school district....” Art. IX, §4(b), Fla. Const.
The responsibility for the actual operation and administration of all schools
needed withjp the districts in conformity with rules and minimum standards
prescribed by the state, and also the responsibility for the provision of any
desirable and practicable opportunities authorized by law beyond those required
by the state, are delegated by law to the school officials of the respective districts.
§1001.30, Fla. Stat (2012).
The district school system includes all public schools in that district. §1001.31, Fla. Stat. (2012).
“Except as otherwise provided by law, all public schools conducted within the district shall be
under the direction and control of the district school board with the district school superintendent
as executive officer.” §1001.33, Fla. Stat (2012). The district school board provides for the
establishment, organization and operation of the schools of the district, including career schools.
§1001.42(4)(h), Fla. Stat (2012).
4.

The Orange County Public School District controls the employees of the District.

A district school board has the power to adopt rules governing personnel matters. §1012.23, Fla.
Stat. (2012). A district school board has the power and duty “... to provide for the appointment,
compensation, promotion, suspension, and dismissal of employees.” §1001.42(5)(a) and
§1012.22(1), Fla. Stat. (2012).
5.

In contrast, Defendants have no authority to appoint, compensate, promote,

suspend or dismiss the employees of the Orange County Public School District Defendants are
only authorized to provide technical assistance to school districts for “... the development of
policies, procedures, and training related to employment practices and standards of ethical
conduct for instructional personnel and school administrators... ” §1001.10(4), Fla. Stat. (2012).
2

68

pjp

None of the statutes conferring powers and duties on the Commissioner of Education, the
Department of Education, or the State Board of Education provide the Defendants with the
power to control instructors employed by the Orange County Public School District. §§1001.01 . 11 and .23, Fla. Stat. (2012). On a statutory level, Defendants have no relationship to this case.
6.

In his Amendment to Complaint, Plaintiff appears to allege that Defendants did

not provide the Florida Department of Highway Safety and Motor Vehicles the appropriate funds
used to pay for Plaintiffs education program at Mid Florida Tech. Plaintiff alleges that
Defendants have failed to comply with public information requests regarding the distribution of
•«

federal funds, and that Plaintiff has suffered retaliation for reporting the funds misallocation.
7.

Although Plaintiff’s amended claims are indeed new, they foil to specify facts

which link Defendants to this action, let alone a legal basis upon which to mount a claim. Even
taking Plaintiffs Amendment as a supplement to Plaintiffs initial Complaint, Plaintiff fails to
express in coherent terms how Defendants have wronged him; the Amendment contributes no
facts of substance, and fails to cite a single law, rule or legal theory which entitles Plaintiff to
redress. Although Plaintiff s Amendment does attempt to raise new issues, it suffers from the
same lack of legal and factual support as Plaintiffs initial Complaint. Unless Plaintiff can
identify and clearly express the facts and legal rights at issue, Defendants are unable to
substantively defend themselves, and Plaintiffs action is improper for this or any court
WHEREFORE, the Defendants respectfully request that the Court enter an order
dismissing the above styled action for failure to state a cause of action.

3

0

/

MOTION FOR A MORE DEFINITE STATEMENT
Although Plaintiff has again failed to enter a pleading which would entitle him to relief,
in the alternative to a dismissal of the above-styled action, Defendants move that die Court
require the Plaintiff to file a more definite statement of his complaint. The Complaint is vague
and ambiguous in that it is not clear what law, rule or legal theory Plaintiff is relying upon; it is
not clear why the Plaintiffbelieves the Defendants are responsible for the alleged discrimination;
it is not clear why Plaintiff believes Defendants misappropriated funds, or which funds Plaintiff
believes were misappropriated.
Respectfully submitted,

4/ Oa&M- Wo>ut&te40i
Jason D. Bomtreger, Esq.
Office of the General Counsel
Florida Department of Education
325 West Gaines Street, Suite 1244
Tallahassee, FL 32399-0400
(850) 245-9531
jason.bomtreger@fldoe.org
CERTIFICATE OF SERVICE
I hereby certify that a copy of the foregoing has been furnished by electronic and postal
mail to the following party this 15th day of December, 2016:
Steven Ivey
Post Office Box 721665
7611 S, OBT
Orlando, FL 32872

4/ fau<ut SvutfaeG&i
Jason D. Bomtreger, Esq.

4

bo

DOE.ReplDism.01.23.18
SECOND JUDICIAL CIRCUIT COURT OF FLORIDA
LEON COUNTY
STEVEN IVEY,
CASE NO: 2014-CA-2493
CIVIL DIVISION

Plaintiff,
vs.
PAM STEWART, DEPT. OF EDUCATION, et. al.,
Defendants.

PLAINTIFF’S REPLY TO DEFENDANTS’ 'MOTION TO DIMISS.. .'.ALTERNATIVE '
___ DEFINITE STATEMENT’ and "MOTION FOR MORE DEFINITIVE STATEMENT’
The plaintiff, Ivey, for the January 30, 2018 hearing at 10:30 provides
the following response and support for denial of defendants' dismissal request.
I. Facts
1.

Since the defendants are moving for dismissal they bare the burden to show

there is no genuine issues of the complaint that is unresolved, thereby, for
any of the claims, and that all such issues have been fully vetted.
2.
a

The defendants receive federal funds in yearly pratice and for the federal

employment program administred by Florida Agency for Workforce Innovations, AWI,
that Ivey participated in, thus, putting the complaint under the authority of
the defendants.
3.

The federal funds in question could not have been given to any state

for any program unless that state met the federal education guidelines to
receive such funds as per federal educational regulations.
4.

The defendants made no compliance to Florida Statutes production request of

public information concerning the federal educaction/works program funds and fee
distribution.
Page 1

6/

■S
DOE.ReplDism.01.23.18
Under Florida state statutes for public information request it is a state

5.

misdemeaner for non-compliance for such request under the prescribed time limit.
6.

Taking federal funds means that the distribution and managment of those

funds fails on the state agency that took those funds and receives benefits
from such funds;

state laws and regulations can not trump those federal

standards.
7.

In any question as to the compliance to the proper distribution and

application of any federal funds can result in the federal authorities
•clawing back* all funds distributed, not just those in any particular areas of
funding for an agency.
8.

The defendants did not conduct a proper investigation into the complaint

which means,
a. no files have been genrated for making a more definitive complaint and
for court review;
b. with no such file it throws the burden on the court for an undue
over-burdensome discovery period; and
c. the defendants willfully caused intentional over-burden on Ivey to file a
more specific complaint and for efficiency of the court so as to avoid a
"vague and or ambiguous" complaint and extensive court actions to mediate.
9.

The defendants did not properly resolve the Rights violation as sent to

the defendants by Sandra Lambert, Director of FL DMV.
10.

Sandra Lambert before working for FL DMV held various positions in the

FI Dept, of Education thus, held knowledge of the Civil Rights complaint
process.

The defendants have not resolved why lambert saw FL. Dept, of

Education as the proper venue for the complaint.
11.

As the state education authority, the defendants, cite that they do have
Page 2

r

DOE.ReplDism.01.23.18
jurisdiction over the cliams because of their use of paragraph 3 of the
'Motion to Dismiss' dated Dec. 15, 2016 and paragraph 5 with citing 1001.10(4)
Fla. Stat. (2012).
12.

Ivey has done his due deligence prior to filing the complaint,

Even more

so, such can be seen by the related complaints with the FL DMV and FL AWI filed
in Florida 9th Circuit Court.
13.

The defendants's counsel did not proceed in the hearing protocol for the

January 30, 2018, therefore, attempting to damage Ivey in stating to the court
that ivey did not fdully cooperate in scheduling.

This was done by the

defendants not taking the approved hearing date of the multiple choices that
Ivey selected best for him but instead chose their own.
II.
1.

Questions and Unresolved Issues
Who for the state sets the "rules and minimum standards prescribed by the

state", as per paragraph 3 of the 'Motion to Dismiss' dated Dec. 15, 2016?
2.
%

What are those "rules and minimum standards prescribed by the state"

referred to in paragraph 3 of the 'Motion to Dismiss' dated Dec. 15, 2016?
3.

Since Sandra Lambert, FL DMV, had worked prevciously for the Dept, of

Education then why did she forward the Civil Rights complaint to the
defendants, FL Dept, of Education, if such does not have proper jurisdiction
over the complaint?
4.

For the state in taking the federal funds, what is the distribution chain?

5.

Does the claim of the defendants that they are not directly responsile for

Mid Florida Tech, MFT, of OCPS comply with federal standards which would usurp
state regulations as per the regulations that determined who could receive the
Page 3

G>3

DOE.ReplDism.01.23.18
federal funds?
6.

Who give approval and state certification to any school system or district

in Florida?
7.

What is the Civil Rights procedure invoked by the complaint?

8. Is there misuse*of statute 1001.10(4), Fla Stat. (2012) definition in the
passage " .... and standards of ethical conduct for personnel and
administrators...." and application to the present case?
9.

,

_

There is a conflict within the argument of the defendants paragragh 5,

pp. 2-3 in that 1001.10(4) Fla. Stat. (2012) because of the contradiction with
the further citing of 1001.01 -.11 and .23 Fla. Stat. (2012) for disnissal
support.
Was the state statute only written in such a way to allow the FL Dept.

10.

of Education to take federal funds but avoid any accountability or
responsibility under the federal employment/education program(s)?
Ill.

Argument
The defendants' arguments are to narrow for the entirity of the complaint

£

issues.

This is particularly true of the newer issues of the misallocation of

the federal funds to pay for employment training in the FL Dept, of Education
systems.

This is in part due to the fact that the defendants did not conduct a

proper investigation to resolve 'all' claims, thus, having resolve of any
present claims that the defendants come now to say is the fault of Ivey for
vagness and ambiguity.

There is no resulting investigation file that Ivey

and the court can reference.

Why would a litigant not follow the present path

for relief when a former FL Dept, of Education employee, Sandra Lambert,
Page 4

bi

DOE.ReplDism.01.23.18
Director of FL DMV, forward the complaint to the FL Dept, of Education? The
defendants are attempting to usurp due process by over-burdening Ivey past his
exercising of due diligence.

Ivey has more than met his duty.

Since the defendants have not conducted any investigation or given
explanation as to the distribution of federal funds in question, how can Ivey be
held to that standard for the purpose of avoiding a dismissal on his claims.
The defendants have committed a misdemeanor for failing to supply public
information request for funds and fee distribution records,

Because the federal

authorities can ‘claw back' the funds in question there is the circumstance that
the defendants are diminishing correction of fraud or giving support for such so
that no funds could be 'clawed back.'

For state oversight authority the is a

need to resolve some contradiction as to what level, county or higher state
function? Can the defendants at the higher state level be constitutionally
sound if they ignore accountability or write themselves off as unaccountable for
what a county level does when at all levels each is benefiting from federal
programs and funds?

For federal regulations in the acceptance of federal funds

*

there can be no such break.

For example under federal statutes of conspiracy

42 @ 1983 there does not have to be a formal connection or agreement between
those of the violation but only that all involved worked towards the same common
end and some benefit to each.

What the defendants are stating is that they can

not be accountable for what the county does when under the guise of education
they both take the federal funds, meaning that the Florida statutes usurp those
of federal regulations.

Such is improper.

It is improper to use such an

unresolved circumstance as part of a granting a dismissal.

Once any issue such

Page 5

<b5

DOE.ReplDism.01.23.18
as fraud has been raised then the counterpart of discrimination takes additional
roles as beinmg intimidation and retaliation for such reporting.
happened to Ivey,

This has

Therefore, at some level the defendants have jurisdiction over

the claims and are accountable.
What the defendants would have to show is that they are not responsible in
any way at any level for Rights violations and employment discrimination as
given in the complaint even though they say they are for ..

standards of

ethical conduct for instructional personnel and administrators..." as per
••

1001.10(4) Fla. Stat. (2012) when reviewing any educational facility,
cliams of Ivey fall into this arena.

The

The issues reveal during discovery with

related case Ivey v. Kynoch, FL DMV, no. 2010-ca-010751-0, of fraud
specifically raise an ethical concern na the treatment of Ivey processing the
claims.

The defendants are practicing an unfounded policy of wanting authority

but yet to not have any authority.

This points to either a misinterpretation

of of the referenced statute or that the statute is wrong.

The language of it

appears ambiguous with the defendants capitalizing on such to twist it to their
desired end.

Was this statute written so as to allow the highest office in the

education system to then not have any corrective control because they now want
to turn a blind eye so as to benefit the state from proper review and resolve of
misallocated federal funds? This is what Ivey is stating as a claim.

Being

left as the defendants describe their role is to have double cost to the
taxpayer for the education administration and review of any instructor and/or
administrator as that of the state level and that of the county level,

To this

citizens are left to have to pay two for the ’supposed' separate entities to
Page 6

■jr

A
DOE.ReplDism.01.23.18
just to take no corrective control or any educational entity having any such
last non-judicial review before an agrieved party is left only to turn to the
judicial system for relief.

This points back to throwing the burden on the

agrieved party and the courts as described above.

Thereofre, with not needing

1 two' then the citizens can cut one and the results to an agrieved party and
the courts would be then same, so why pay double? This wouold not be the
intended end use and result of the referenced statute.
From the defendants’ "Motion for Dismissal...." starting in paragragh 3
as it leads into paragraph 5 there is the practice of ’putting the cart before
the horse.’

This generates a contradiction within the argument of the

defendants with paragragh 5, PP. 2-3 in that 1001.10(4) Fla. Stat. (2012)
because of the conflict with the further citing of 1001.01 -.11 and .23 Fla.
Stat. (2012) for disnissal support.

The statute is being taken out of its

intended order for the distribution of structure for the educational system.
On the first presentation of the statute the defendants are citing some
universal control only to then cite an interpretation as to not having control.
Once again there is the policy of having ’all’ authority but then having no
authority.

This is a means of avoiding accountability and responsibility by

manipulating the statue to only mean that which is most beneficial to the
defendants and not its intended purpose.

The defendants are describing

themselves as a ’ghost' educational entity.
There is conflict between the distribution of authority within the
education system as described by the defendants.

There is then corifict

between the distribution of the federal funds as to who is untimatley
Page 7

6/

DOE.ReplDisrn.01.23.18
responsible for any wrongdoing. The defendants did not resolve how they can
be separated from MFT/OCPS even though they took the federal funds which binds
them to any other system level. The regulations for accepting federal funds
does not strictly apply to a particular program. The federal regulations would
apply universally to all federal funds taken,

It can not be assumed that the

avoidance of correcting one area of distribution automatically means that there
is not wrongdoing in other distributed areas.

This demonstrates unresolved

conflicts.
Under such conditions there should have been and still should be an audit
to sort through the fault and accountability. Ivey has requested such
information with the defendants in noncompliance so as to commit a state
misdemeanor. Under federal statutes in reporting claims covering the
misallocation of the federal funds such as the Whistle-blowers Act, (as revised
in 2010), Ivey having come this far in a complaint process for reporting the
funds violations is already considered having been discriminated against.
Should the defendants continue on their present argument an appropriate option
*

for Ivey would be to move claims to a federal venue.
IV.

Conclusion
In requesting dismissal, the defendants have the burden to resolve 'all'

claims and issues to ensure their part of proper due process is preserved.

There

exist various conficts in the defendants handling of the cmplaint and in seeking
proper dismissal that have gone unresolved.

Because Ivey can move some of the

claims into federal court there is the demonstration that the complaint is not
going away.

The defendants at some level have the responsibility to conduct and
Page 8

DOE.ReplDism.01.23.18
make a judgement as to the actions of MFT/OCPS; an investigation report.

Do the

defendants want to be left to answer a question by many as to why or what they
could not or should have done to prevent further litigation as the oversight
authority when they now claim they have no responsibility? Who would they suggest
in the state to fix the problems, the FL Department of Game and Fishing? The
referenced statutes by the defendants where not generated to give 'carte blanc* to
MFT/OCPS for being unaccountable.
The defendants are using ambiguity as the meaps and direction to mislead
the court for dismissal.

Ivey need only one questionable issues that is

unresolved by the defendants for the complaint to survive dismissal, though there
are various issues even that at the level of federal circumstances.

Therefore,

though in part or any combination of the above the defendants 'Motion for
Dismissal' should be denied and "Motion for More Definited Statement* should be
suspended pending a proper investigation by the defendants.
Certificate of Service
s

Office of the Clerk
Second Circuit Court of FL
Leon County Courthouse
Civil Division/Room 365-C
301 S. Monroe St.
Tallahassee, FL, 32301
and,
Dason D. Borntreger
Office of the General Counsel
FL Dept, of Education
325 West Gaines St., Ste. 1244
Tallahassee, FL, 32399

Date

Steven Ivey, Plaintiff

Page 9

DOE.HeanRep.02.12.18
Steven Ivey
PO Box 721665
Orlando, FL, 32872
Judge Charles Dodson
Second Circuit Court of FL
Leon County Courthouse
Civil Division/Room 365-C
301 S. Monroe St.
Tallahassee, FL, 32301
3ason D. Borntreger
Office of the General Counsel
FL Dept, of Education
325 West Gaines St., Ste. 1244
Tallahassee, FL, 32399

FEB 12, 2018 „

RE: Ivey v. Stewart, CASE NO: 2014-CA-2493
Dear 2nd Circuit Court/Judge Dodson/FL Dept, of Education/Borntreger,
For the January 30, 2018 hearing it needs to be noted that
I never, even before this case was moved from 9th Circuit to 2nd
Circuit, stated that I would receive documentation via an email.
Niehter the defendants nor the court has complied with this situation
with me. All documents have to be mailed I do not have a dedicated
internet service or any type of I-phone.

®

I sent my ’Motion to Appear telephonically’ to the court
in the first week of January 2018. This allowed for more than
sufficient time for the court to order on the ’Motion’ prior to the
January 30, 2018 hearing. I checked the mail on January 29, 2018 for
a ruling on the 'Motion' but did not receive any such order. Therefore,
I did not receive the instructions to call to the court prior to the
hearing. Thus, FL Rules of Civil Procedure were not followed. Proper
due process was not follow even though the dated January 25, 2018
'Order' on the 'Motion' did reach me after the hearing date. To date
I have not received any 'Order' resulting from the hearing if there
was one.
The defendants have regularly failed to follow with contacting
via post mailings. This is just one example of the defendants not
doing their proper prescribe course of procedure in the claims and for
court action.
Within depositions of Darren Oaks and Ted Price taken by
FL DMV counsel, Daryl Manning, in related case Ivey v. Kynoch, case
no. 2010-CA-010751-O, there is perjury in Price and Oaks citing the
events of my. claims. This perjury was done to avoid not only my claims
Page 1

G

y

/

j
7

/
./

Jf

1

DOE.HearRep.02.12.18
but the actions of them, Mid Florida Tech; Orange County Public Schools,
and the Florida Department of Education/Stewart for extorting federal
employment funds; faliure to distribute those funds properly; and the
failuire to conduct a proper investigation. This would have been part
of the hearing of January 30, 2018. This represents a new issues as
not known to me at the time of the initail filing of the claims with
this case and the related cases, thus, an issue the defendants needs to
investigate. With this letter there are being given notice of such
and I will inform Jjie federal authorities of the issue.
The only request or suggestion at this point would be the
possibility of a reconsideration of, if any negative 'Order* for
me from the hearing was made, or the court to 'ua sponte* take the
issue up to correct the failure of proper notice to me. Otherwise,
I will file an appeal for this case and, also, file a_case against the
defendants in the appropriate federal district court for those
claims falling within federal jurisdiction. My attempts have been
with the present defendants, and the other defendants in the related
case with FL DMV and FL Agency for Workforce Innovations to avoid
excessive litigation so as to show in the future cases that I am
not filing meritless or frivolous cases, as was the efforts of the
defendants in the related FL DMV case of listing all previous
court actions of myslef (both of you were sent this case listing
with my reply).
Certificate of Service

e

Judge C. Dodson
Second Circuit Court of FL
Leon County Courthouse
Civil Division/Room 365-C
301 S. Monroe St.
Tallahassee, FL, 32301

and,

Jason D. Borntreger
Office of the General Counsel
FL Dept, of Education
325 West Gaines St., Ste. 1244
Tallahassee, FL, 32399

Date

Steven Ivey, Plaintiff

Page 2

!Nim€IRCmTC»IJRT,NMmjIJI)IC3ALCIRCmT
IN AlfiD FOR ORANGE COUNTY, BLOBIDA
STEVEN IVEY,

1
:
:
•:
;

Plaintiff
vs.

Case No.: 201G-CA-10751-0

I

SANDRA LAMBERT,
DARREN OAKS, TED PRICE,
OFFICE OF MOTOR VEHICLES, etaL,

I

Defi

:

DUj’feNDAM'. SANDRA lAMSEffPS ANSWKRR Tn
HAINiiBFS FIRST SET Off iNTfmnCATfmiES
1.
mvurnnr:---------name used ty you-------address, marital status, and soda! security nnrnhpr

Response:

any
i

Sandra dose Lambert.

1

n

;

i|

resmne to satisfy this request
Response:
&

r

See attachments A&B.

3. For the posM<myaaMddnripg dm time die plaintifffiled the initial conqdamt with die
DMV what job experience or other previous experience, eveanon-wodc
(ie. job,
laterd contact, first hand knowledge etc.X did you have that relates directly to dm job
fimrefore, the subject matte of toe
in toe mnyfamtf Explain.
(Example: If you were a nurse and the claims relate to first aid Tresfflmsnrf ypy wndd lis^
taking care of a sick femify memter; volunteering at a hospital; an Army soldier wherein
yontreated usuries, etc. (Explain in some detail toe ente^ of ytoat you.
in

ii

i
5
r

PagelcfS

'll*

§afeft

STATE OF

cf?JLt^.£

coostroE
BEFORE

ME,

*e

nndenagned
P®500^
appeared
**&, afebeing duty swam, deposesand says

liil**' I iTTijn r

©stories are tiiE and correct.

I
i

Sworn to
2011

s

O .

name of

6

I

P^esofs

t-'

m*r
3$ 5* r

If ---

Leon County Schools
196&-1976

Bemen*ary School Teacher

Education

m

£

■*

*

rf

X

1

CISUaNDCraRrci^SEc^S,J^^^ CIBCOIT,

2
3

4

sas^gKT ivet.

5

6

Plaintiff,
vs.

CASE NO: 2010-GA-10751-0

7
8
9

SANDRA LAMBERT, BARREN
OAKS, TED PRICE, OFFICE
OF MOTOR VEHICLES, et al.,
Defendants.

10
11
12

DEPOSITION OF:

13

DERREN OAKES

14
Taken by:

Daryl M. Manning, Esquire

Date:

June 4, 2012

Tame:

10:04 a.m.

location:

Office of the Attorney General
135 West Central Boulevard
Suite 1000
\
Orlando, Florida

Reported By:

Cynthia R. Green, Court Reporter
Notary Public, State of Florida

15
16
17
18
19
20
21
22
23
24
25

American Court Reporting
407.896.1813

10

1

2
3
4

pounds or less.
Q.

was a student in one of your courses toy the name of
Steven Ivey?

5

A.

6

Q.

7
8
9
10
11

Kow, are you aware of an individual that

Yes, sir.

And when do you recall first having any
contact with.Mr. Ivey?
-A.

Well, referring to my notes, he started the
•«

course on January the 8th of 2009.
Q.

And you were an instructor at the school

during that time?

12

A.

Yes, I was.

13

Q.

And Mr. Ivey would have enrolled in which

14
15
16

course?
A.

He was enrolled in the Class A course,

Course No. 1490205, Section No. 06A *nH Q6P.

17

THE REPORTER:

18

THE WITNESS:

P as in P.M.

19

THE REPORTER:

Thank you.

20
21

Is that B or P?

BY MR. MANNING:
Q.

Talk with me a little about the course

22

the price that individual students would pay to

23

enroll in the course.

24
25

A

Yes, sir.

Do you know that?

Here again referring to my notes

or his admission to class 'slip, he would have paid
American Court Reporting
•407.896.1813

11

X

approximately $891.50 for the — excuse me just a.

2

rainute and let me look at this before I say that.

3

They’re splitting them up, A and B — $891.50 for

4

the A portion, which is the A.M. portion of the

5

class, and also $891.50 for the 06P, which is the

6

P.M. portion of the class,

7

fees and his tuition fees.

8
9

And this covers his lab

And then there is some additional charges
that he would have paid before entering the class

10

and then an additional charge to pay for his license

11

upon completing the CDL testing during the class.

12

And X also noted here that his was

13

deferred, so X believe he was sponsored by an

14

agency.

15
16
17

Q.

And do you have any idea that name of that

agency?
A.

The code A1 on his — referring back to my

18

notes, the code Al, X believe, is Central Florida

19

Workforce Education.

20

Q.

Can you go through in general the course

21

curriculum, the — I don’t need each class in each

22

day, but give a general understanding or explanation

23

of what a student would go through upon signing up

24

for the Class A course.

25

A.

The Class A coursfe is broke down basically
American Court Reporting
407.896.1813

13

1

2
3

the general population.
Q*

!*m going to back you up into when

4

we started talking about your amount of t-imo that
you’ve been with the school and you’ve been working

5

as an instructor.

6

Shat training do you have and — what

7

training and .expertise do you have allowing you to

8

be an instructor for these courses?
a.
IShen I started with Mid Florida Tech, in

9
10
11

December of 1988, I verified close to ten years of
driving experience. And you had to have at least

12

sik years of driving experience to become a

13

vocational teacher.

14

Through that, went through normal courses
to get my state of Florida teaching certificate,

15
16
A

Okay,

17

took additional courses to get my advanced degree
for the state of Florida or specialist degree for

18

ibe state of Florida on my teaching certificate.

19

am also

20

which is commercial driver’s license. third-party

21

examiner, which allowed me to give the cnt. test for

22

Mid Florida Tech.

23

to be a CDL third-party tester trainer, which

24

allowed me to- train other CDL third-party testers

25

for the state of Florida, that would enable t-hpm to

X

went through the training to be a CDL,

X also went through the training

American Court Reporting
407.896.1813

52

1

CERTIFICATE OF PATH

2
3

STATE OF FLORIDA

4 .
5

ss:
COUNTY OF ORANGE

6
7

I, the undersigned authority, certify that

8

DEFREN OAKES personally appeared before me and was

9

duly sworn.

10
11

WITNESS my handP and official seal this 13th
day of June, 2012.

/
;
/

12
13
14
15
16
&

C\ r^.

—7

CYNTHIA R. GREEN, Court Reporter
Notary Public, State of Florida
Notary Commission #EE 203636
Commission Expires: 06/01/16

17
18
' 19
20
j

21
22
23
24
25

;

American Court Reporting
407.896.1813

7?

1
1

IN THE CIRCUIT COURT OF THE NINTH JUDICIAL CIRCUIT,
IN E3D FOR GRANGE COUNTY, FIORIDA

2
3
4

STEVEN IVEY,
Plaliitiff,

5
6

CASE NO: 2010-CA-10751-0

vs.

7
8

SANDRA LAMBERT, DARREN
OAKS, TED PRICE, OFFICE
OF MOTOR VEHICLES, efc al.,

9

Defendants»

10

/

11
12

DEPOSITION OF:

13

TESRO PRICE

14
Taken by:

Darjl M. Manning, Esquire

Date:

June 4, 2012

Time:

11:37 a.m.

Location:

Office of the Attorney General
135 Wfest cgastaeAl Boulevard
Suite 1000
Orlando, Florida

Reported By:

Cynthia R. Green, Court Reporter
Notary Public, State of Florida

15
16
4

17
18
' 19
20
21
22
23
24
25
American .Court Reporting
407.896.1813

7
1

Q-

and you’re involved In both of those?

2

A.

That is correct.

3

Q.

Okay.

4

work there with you?

5

A.

Yes, sir.

6

Q-

Okay.

7

A.

Derren Oakes, Martin Witt, and

8
9

And those individuals are?

Marvin Cowart and Keith Pence.
Q.

And so what is your background in terms of

10

experience or certifications or any licenses that

11

deal with this area of CDI>?

12

&

And are there other instructors that

A.

Well, prior to being employed at Orange

13

County Public Schools, I had both over the road and

14

local truck driving and bus experience, which met

15

the criteria — or. one of the criterias to become an

16

instructor at Orange County Public Schools, Mid

17

Florida Tech.

18

And at that point in time, 1 had to obtain.

19

my Orange County— Orange Count? District teaching

20

certificate, which involved the — just the

21

teacher’s exam, taking various classes at the

22

University of Central Florida, and to obtain my

23

teaching certificate.

24
25

As far as employment, you said?
Q-

I’m sorry.

I wanted to see what type of either
American.Court Reporting
407.896.

fpr

“U

1

OF OKES

2
3

STATE OF FLORIDA

4
5

ss:
COUNTY OF ORANGE

6
7

I, the undersigned authority, certify that

8

TESRD PRICE personally appeared before rae. and was

9

duly sworn.

10
11

WITNESS my hand and official seal this 13th
day of June, 2012.

12
f

13

14
15
16

CYNTHIA R. GREEN, Court Reporter
Notary Public, State of Florida
Notary Commission #EE 203636
Commission Expires: 06/01/16

17
6

18
19
20
,21
22
23
24
25

;

American Court Reporting
407-896. '

$Z

UB»

. .Kl

BSgSj1

S-f

%

ClmlieCrist

A SAFER
H FSY

Governor
Bin McCollum
■Anna nuy General

I Mill

s.
_________ _ - ------:----------------------.
HiGlMAY SAFET\^|;f) feOTflOJJ VEHICLES

3900 Apalachee Paifaway
^aHahM3ee,Flca^a3a3»-OSOO
. wwwdlhsnrcgay

SexSiak

ChiefFinancial Gffic«*r

rv-.

Comuiiksirtnertf.amieMltmp

May29,2009

Mr. Steven Ivey
7611 South Oran^ BIossornTraSl, #278
Odando, Florida 32809
Dear Mr. Ivey:
f

£

letter datedMay 12> 2^> ^anling your experiences at Mid-Florida

3
*
.:

students ready for their state

***

*

^ tested for Kcensmgpmposes but do
ofaPPhcanis ** may be
^ individQaL WeWsS^Lpyof^°^tfassemccto^particular

vi purPosi,
SS^^Si^SSC^Sr^^r'WeaCa’,,f0r
atastateKjpaatedSteatnocfaar^and^S^^S^^SS.*6^
Youmaytake this test
> ik-n

/^T
conqiletedto getyonr
/> have
foundalready
a hBa^www.flW^S^^

fto®e you

7t. £±SSggar~- «S£JSSS£
r

Ifyoa have any further^n-s;r.n IS, please <k> not hesitate to conlact Skip Hood

ZO skjpfaood@flhsrnv onv

at

Sincerely,

. .*

SCL/sh

AWk
63

IN THE DISTRICT COURT OF APPEAL
FIRST DISTRICT OF FLORIDA
STEVEN IVEY,
Appellant,
cd

<U

&
&
<
o

1o

u

o

i

5
2

tt,

v.

Case No.: 1D18-0941
L.T. No.: 2014-CA-2493

PAM STEWART, AS COMMISSIONER
OF EDUCATION,
Appellee.
/

oT
3

e

<3
CO

ON APPEAL FROM THE
SECOND JUDICIAL CIRCUIT IN AND FOR LEON COUNTY, FLORIDA

-S

to

a

ANSWER BRIEF OF APPELLEE

£
Cti

o

• <2
o\

Jason D. Boratreger, Esq.
Florida Bar No. 101731
Florida Department of Education
325 West Gaines Street, Suite 1244
Tallahassee, Florida 32399-0400
jason.bomtregCT@fldoe.org

o

£2
Q

S.
a

W

Counselfor Appellee Pam Stewart

1

TABLE OF CONTENTS
TABLE OF CONTENTS

2

TABLE OF CITATIONS

3

PRELIMINARY STATEMENT

5

STATEMENT OF THE CASE AND FACTS

6

SUMMARY OF THE ARGUMENT

8

ARGUMENT

9

Issue I:
The Second Circuit correctly dismissed Appellant’s
Complaint and Amendment for failure to state a cause of action

9

CONCLUSION

15

CERTIFICATE OF SERVICE.

15

CERTIFICATE OF TYPESTYLE AND TYPESIZE

16

m

2

86

w

0

TABLE OF CITATIONS
Cases
Clay Elec. Co-op.. Inc, v. Johnson.
873 So. 2d 1182 (Fla. 2003)..................................
Felder v. State. Dept of Memt Services. Div. of Ret..
993 So. 2d 1031 (Fla. 1st DCA 2008)................
Frisch v. Kelly.
137 So. 2d 252 (Fla. 1st DCA 1962)..................... ...........
Golden v. Jones.
194 So. 3d 1060 (Fla. 4th DCA 2016)................................
Jews For Jesus. Inc, v. Rapp.
997 So. 2d 1098 (Fla. 2008)..................................... .........
Response Oncology. Inc, v. MetraHealth Ins. Co..
978 F. Supp. 1052 (S.D. Fla. 1997).:.................................
Rocks v. McLaughlin Eng'g Co..
49 So. 3d 823 (Fla. 4th DCA 2010)...................................
Sieele v. Progressive Consumers Ins. Co..
819 So. 2d 732 (Fla. 2002)....... .........................................
Woodbury v. Tampa Waterworks Co..
49 So. 556 (Fla. 1909).......................................................
W.R. Townsend Contracting. Inc, v. Jensen Civil Const.. Inc..
728 So. 2d 297 (Fla. 1st DCA 1999).................................
Florida Statutes
§1001.01, Fla. Stat.
§1001.02, Fla. Stat.
§1001.03, Fla. Stat.
§1001.10, Fla. Stat.
§1001.11, Fla. Stat
§1001.23, Fla. Stat
§1001.30, Fla. Stat.
§1001.31, Fla. Stat.
§1001.33, Fla. Stat
§1001.42, Fla. Stat
§1012.22, Fla. Stat.
§1012.23, Fla. Stat.

Page
10
10
11
11
10
9
9
9
10
9

14
14
14
14
14
14
13
13
13
13,14
14
14

3

. :• ■

Constitutional Provisions
Art. IX, §4(b), Fla. Const.

14

Florida Rules of Civil Procedure
Fla. R. Civ. P. 1.110(b)...............
Fla. R. Civ. P. 1.140(b)(6)........

11
9

Secondary Sources
55 Fla. Jur 2d Torts §2

10

4

sr-

W

PRELIMINARY STATEMENT
This is an appeal from an Order of Dismissal issued by the Circuit Court of
the Second Judicial Circuit in and for Leon County, Florida (“Second Circuit”). The
Second Circuit issued the order on February 6,2018, therein dismissing Appellant’s
Complaint and Amendment to Complaint for failure to state a cause of action.
Appellant, Steven Ivey, was the Plaintiff in the lower proceeding, and will be >referred to as “Appellant” or “Mr. Ivey”. Appellee, Pam Stewart, in her role as
Florida Commissioner of Education, was the Defendant in the Iowa: proceeding, and
will be referred to as “Appellee” or “Commissioner Stewart”. The Florida
Department of Education will be referred to as “FDOE” or “the Department”.
Citations will be made to the record on appeal as “R.” followed by the page
number. Appellants’ Amended Initial Brief will be referred to as “AIB.” followed
by the page number.

5

&

air'
STATEMENT OF THF. CASE AND FACTS
On or about January 29, 2013, Appellant filed a civil action in the Circuit
Court of the Ninth Judicial Circuit in and for Orange County, Florida. Therein,
Appellant named Appellee, Commissioner Stewart, as Defendant. (R. 9-22.) .
Appellant’s Complaint alleges that instructors and administrators at Mid
Florida Tech, a school operated by the Orange County Public School District,
unlawfully discriminated against Appellant in the provision of his commercial driver
license course. (R. 9-16.) Additionally, Appellant’s Complaint alleges that
employees of the Orange County School District engaged in behavior that
discouraged Appellant from pursuing a claim against Mid Florida Tech. (R. 16-18.)
Appellant’s Complahit also contends that Appellant referred his various concerns to
the Department, which took no action. (R. 18,20,21.)
On or about March 29, 2013, Appellee filed its Motion to Transfer Venue,
Motions to Dismiss, and Motion for a More Definite Statement (R. 52-55.) After
hearing the motions, on or about September 10,2014, the Circuit Court of the Ninth
Judicial Circuit issued its Order Transferring Venue and Denying Plaintiff’s Motion
for Default Although silent on Appellee’s Motions to Dismiss and Motion for a
More Definite Statement, the Order found that venue was properly located in Leon
County, Florida, and ordered the action transferred to the Second Circuit. (R. 5.)

6

89

After transfer of the action, the Second Circuit heard Appellee’s still-pending
Motions to Dismiss and Motion for a More Definite Statement. On or about
November 10, 2016, the Second Circuit issued its Order Dismissing Complaint.
Therein, the Honorable Charles Dodson ordered Appellant’s Complaint dismissed,
without prejudice, for failure to state a cause of action. Additionally, the Order
ided Appellant an additional 20 days to file an amended pleading. (R. 87.)

provi

On or about November 30, 2016, Appellant filed his Amendment to
Complaint. Appellant’s Amendment appears to allege that Appellee failed to provide
the Florida Department of Highway Safety and Motor Vehicles with federal fends
to pay for Appellant’s aforementioned commercial driver license course.
Appellant’s Amendment also appears to allege that Appellee failed to
provide information regarding distribution of said funds, and that Appellant
has suffered retaliation for reporting the funds misallocation. (R. 88-91.)
On or about December 15, 2016, Appellee filed its Renewed Motion to
Dismiss or, in the Alternative, Motion for a More Definite Statement. (R. 94-97.)
After a hearing on the motions, on or about February 6, 2018, the Second Circuit
issued its Order Dismissing Amended Complaint. Therein, the Honorable Charles
Dodson ordered Appellant’s Complaint and Amendment to Complaint dismissed,
with prejudice, for failure to state a cause of action. (R. 112.)
On or about March 5,2018, Appellant filed his Notice of Appeal. (R. 114.)
7

-^

■sf

r?F

SUMMARY OF ARGUMENT
The Second Circuit acted properly in dismissing Appellant’s Complaint and
Amendment to Complaint Even construing the coherent portions of Appellant’s
pleadings as true, Appellant’s Complaint and Amendment to Complaint are legally
insufficient to state a cause of action, and are of a nature in which Appellant could
not prove any set of facts whatsoever to support a claim of redress against Appellee.
Regarding Appellant’s pleadings generally, Appellant has consistently foiled
to set forth a legal cause of action or a statement of the facts showing entitlement to
relief. Florida law provides that a complaint is subject to dismissal when it is unclear
what legal theory and ultimate facts support a further decision or judgment by the
trial court, and a complaint which is so vague, indefinite and ambiguous as to wholly
fail to state a cause of action is subject to dismissal. Accordingly, the Second Circuit
properly dismissed Appellant’s action.
Regarding Appellant’s claims of discrimination, Appellant wrongly believes
that Mid Florida Tech falls under the purview and jurisdiction of Appellee, thereby
attributing some liability thereto. However, by operation of law, Appellee has no
authority to appoint, compensate, promote, suspend, dismiss or otherwise control the
employees of the Orange County School District. In reality, Appellee bears no
relationship to the factual claims underlying Appellant’s pleadings, and, to that end,
the Second Circuit properly dismissed Appellant’s action.
8

2/

ARGUMENT
Issue I
The Second Circuit correctly dismissed Appellant’s Complaint and
Amendment to Complaint for failure to state a cause of action.
Standard of Review:
Whether a complaint is sufficient to state a cause of action is an issue of law,
and appellate review of such a determination is subject to the de novo standard of
review. Siegle v. Progressive Consumers Ins. Co.. 819 So. 2d 732, 734 (Fla. 2002)
(citing W.R. Townsend Contracting. Inc, v. Jensen Civil Const.. Inc.. 728 So. 2d
297, 300 (Fla. 1st DCA 1999)). The reviewing court must accept as true all wellpled allegations in the complaint, and must draw all reasonable inferences in favor
of the pleading party. W.R. Townsend at 300 (citing Response Oncology. Inc, v.
MetraHealth Ins. Co., 978 F. Supp. 1052, 1058 (S.D. Fla. 1997)). However, the
reviewing court need not accept internally inconsistent factual claims, conclusory
allegations, unwarranted deductions or mere legal conclusions made by a party. Id.
Argument:
Florida law provides that the defense of failure to state a cause of action may
be made by motion. Fla. R. Civ. P. 1.140(b)(6). The test for a motion to dismiss for
failure to state a cause of action is whether the pleader could prove any set of facts
whatsoever in support of the claim. Rocks v. McLaughlin FnaV Co 49 So. 3d 823,
826 (Fla. 4th DCA 2010). A motion to dismiss is designed to test the legal

0Z

■

.

:

sufficiency of a complaint and, in so doing, all well pleaded allegations of the
complaint must be construed as true. Felder v. State. Dept, of Mgmt. Services, Div.
of Ret. 993 So. 2d 1031,1034 (Fla. 1st DCA 2008).
Having thoroughly read Appellant’s Initial Brief and Amended Initial Brief,
the precise nature1 of this appeal is unclear. Although Appellant does not identify a
specific contention regarding the Second Circuit’s Order of Dismissal, Appellant
appears to reargue the merits of the underlying action, and appears to improperly
introduce new matters on appeal. Unable to determine the specific thrust of
Appellant’s appeal, this section will focus on the reasons why the Second Circuit
acted properly in dismissing Appellant’s Complaint and Amendment to Complaint.
A.

Appellant fails to express a legal theory upon which to recover

The primary purpose of tort law is that wronged persons should be
compensated for their injuries, and that those responsible for the wrong should bear
the cost of their tortious conduct. Jews For Jesus. Inc, v. Rapp. 997 So. 2d 1098,
1105 (Fla. 2008). Speaking generally, the basic elements necessary to state any tort
claim are duty, breach of duty, causation between the breach of the duty and the
injury, and actual damage. 55 Fla. Jur 2d Torts § 2. See also Clav Elec. Co-op.. Inc.
v- Johnson. 873 So. 2d 1182, 1185 (Fla. 2003). Liability for a tort arises from the
violation of a duty or duties expressed or implied by law. Woodbury v. Tampa
Waterworks Co.. 49 So. 556,562 (Fla. 1909).
10

93

A pleading which sets forth a claim for relief must state a cause of action and
shall contain a short and plain statement of the ultimate facts showing that the
pleader is entitled to relief. Fla. R. Civ. P. 1.110(b). Florida law provides that a
complaint is subject to dismissal when it is unclear what legal theory and ultimate
facts support a further decision or judgment by the trial court. Golden v. Jones. 194
So. 3d 1060,1063 (Fla. 4th DCA 2016). Although a motion to dismiss for failure to
state a cause of action does not reach the defect of vagueness, a complaint which is
so vague, indefinite and ambiguous as to wholly fail to state a cause of action is
subject to dismissal. Frisch v. Kelly. 137 So. 2d 252,253 (Fla. 1st DCA 1962).
Appellant’s Complaint alleges that instructors and administrators at Mid
Florida Tech, a school operated by the Orange County Public School District,
unlawfully discriminated against Appellant in the provision of his commercial driver
license course. Additionally, Appellant’s Complaint alleges that employees of the
Orange County School District engaged in behavior that discouraged Appellant from
pursuing a claim against Mid Florida Tech. Appellant’s Complaint also contends
that Appellant referred his concerns to the Florida Department of Education, which
took no action. Although it does mention Appellee, at no point does Appellant’s
Complaint specify a factual or legal basis for pursuit of a claim against Appellee.
In his Amendment to Complaint, Appellant appears to allege that Appellee
did not provide the Florida Department of Highway Safety and Motor Vehicles the
11

94

appropriate funds used to pay for Appellant’s education program at Mid Florida
Tech. Appellant’s Amendment alleges that Appellee has failed to comply with
public information requests regarding the distribution of federal hinds, and that
Appellant has suffered retaliation for reporting die funds misallocation. Again,
although the pleading does mention Appellee, at no point does Appellant’s
Amendment specify a factual or legal basis for pursuit of a claim against Appellee
In both Appellant’s Complaint and Amended Complaint - even in considering
the Amendment as a supplement to the Complaint - Appellant fails to articulate facts
which conclusively link Appellee to this action, let alone establish a legal basis upon
which to mount a claim. Put plainly, Appellant’s pleadings fail to express in coherent
terms how Appellee has wronged him, and fail to cite a single law, rule or legal
theory which would entitle Appellee to redress. Although Appellant’s Amendment
does attempt to raise new issues, it suffers from the same lack of legal and factual
support as Appellant’s Complaint. As Appellant has been unable to identify and
clearly express the facts and legal rights at issue, Appellee cannot substantively
defend herself^ and the Second Circuit rightfully dismissed Appellant’s action.
B.

By law, Appellee has no authority over MFT or OCSD employees

Appellant’s Complaint erroneously alleges that Mid Florida Tech and the
Orange County School District are under the jurisdiction of the Florida Department
of Education. To this end, Appellant believes that Appellee beans responsibility for
12

9$

'"3F"

alleged wrongdoing. However, by operation of statute and constitutional provision,
Appellee does not control the employees of the Orange County School District, and
has no authority to oversee the District’s supervision of District employees.
The Orange County School District is created by the Florida Constitution,
which provides that the board “... shall operate, control and supervise all free public
schools within the school district....” Art. DC, §4(b), Fla. Const Pursuant to statute,
the Orange County School District is the only party responsible for the operation and
administration of public schools located within the district:
The responsibility for the actual operation and administration of all
schools needed within the districts in conformity with rules and
minimum standards prescribed by the state, and also the responsibility
for the provision of any desirable and practicable opportunities
authorized by law beyond those required by the state, are delegated by
law to the school officials of the respective districts.
§1001.30, Fla. Stat. (2018).
The district school system includes all public schools, classes and courses of
instruction in that district. §1001.31, Fla. Stat. (2018). “Except as otherwise provided
by law, all public schools conducted within the district shall be under the direction
and control of the district school board with the district school superintendent as
executive officer.” §1001.33, Fla. Stat. (2018). The district school board provides
for the establishment, organization and operation of the schools of the district,
including career schools. §1001.42(4)(h), Fla. Stat (2018).

13

$6

»r:'-

The Orange County School District controls the employees ofthe District
, and
has the power and duty ■ • designate positions to be filled, prescribe qualifications
for Arose positions, and provide for tire appointment, compensation, promotion,
suspension, and dismissal ofemployees.” §1001.42(5Xa) and §1012.22(1), Fla. Stitt.
(2018). Additionally, the Orange County School District has the power to adopt rules
governing personnel matters. §1012.23, Fla. Stat (2018). Accordingly, fo
e Orange
County School District bears sole responsibility for the
actions of its employees.
in contrast, Appellee has no authority to appoint, compensate,
promote,
suspend or drsnrrss tire employees of the Orange County School Distiict. Appellee
is only authorized to provide technical assistance to school districts for “... foe
development of policies, procedures, and training re]ated to employment practices
and standards of ethical conduct for instructional
personnel and school
administrators...” §1001.10(4), Fla. Stat. (2018). None of foe statutes
conferring
powem and duties onto Appellee provide her wifo foe power to contio. employ
ees
Of the Orange County School District. §§1001.01
~ 11 and .23, Fla. Stat. (2018). By
operation of law, Appellee has no relationship to the facts underlying Appellant’s
Pleadings, and, as a result, Appellant's action was properly dismissed.

14

W
CONCLUSION
WHEREFORE, Appellant has foiled state a viable cause of action in his
Complaint and Amendment, and the Second Circuit appropriately dismissed the
action. As such, the Appellee requests that the Second Circuit’s decision be affirmed.
Respectfully submitted,
H1

4/

Jason D. Bomtreger, FBN # 101731
Office of the General Counsel
Florida Department of Education
325 West Gaines Street, Suite 1244
Tallahassee, FL 32399-0400
Telephone: (850) 245-0442
jason.bomtreger@fldoe.org

CERTIFICATE OF SERVICF.
I hereby certify that a true and correct copy of the foregoing document has
been furnished by electronic and postal mail to the following parties on this 4* day
of January. 2019:,
'03.

S£e$aa Ivey
Post Office Box 721665
Orlando, Florida 32872
iveysteven@hotmail.com
ivystv@yahoo.com

4/ 0046# ^wut&ieaen
Jason D. Bomtreger, FBN # 101731
15

98

